Audit
Report
         ACQUISITION OF THE WIDE AREA MUNITION



Report No. D-2002-011                 October 24, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ATEC                  Army Test and Evaluation Command
ROC                   Required Operational Capability
WAM                   Wide Area Munition
                       Office of the Inspector General, DoD
Report No. D-2002-011                                                  October 24, 2001
   (Project No. D2001AE-0011)

                    Acquisition of the Wide Area Munition

                                Executive Summary

Introduction. The Army initiated the Wide Area Munition program in November
1986, to be a smart, autonomous, top-attack, anti-tank munition to neutralize armored
combat vehicles (track and heavy wheeled) at a standoff distance. The Wide Area
Munition uses acoustic and seismic sensors in its ground platform to detect, track, and
classify potential targets, and then launch an infrared detecting submunition over the top
of the selected tracked target. Once above the target, it fires an explosively formed
penetrator intended to neutralize the lightly armored top-side of most combat vehicles.
The program office estimates that the system will cost about $335 million in research,
development, test, and evaluation funds and about $1.7 billion in procurement. The
Army Acquisition Executive is the milestone decision authority for this program that
the Army manages as an Acquisition Category II major acquisition program.

Objectives. The audit objective was to evaluate the overall management of the Wide
Area Munition program. Because the program was in the engineering and
manufacturing development phase, we determined whether management was cost-
effectively developing and readying the system for the production phase of the
acquisition process. In addition, we evaluated the management control program as it
related to our audit objective. The Wide Area Munition program consists of two
versions: the basic Wide Area Munition (Hornet) and the product improvement
program (Advanced Hornet).

Results. The Army and the Wide Area Munition Program Manager did not effectively
manage the expenditure of $305 million in research, development, test and evaluation
funds through FY 2001 to ready the Hornet for production and deployment, and to
conduct the engineering and manufacturing development phase for the Advanced
Hornet. Specifically,

     •   the Army and program office supported the continuation of the program even
         though unit costs had increased by 330 percent and the schedule had slipped by
         more than 5 years since program inception;
     •   the Army allowed changes to the Hornet operational performance requirements
         below those originally established and acceptable by the user;
     •   the Army independent test organization determined that the Hornet was not
         operationally effective based on test results that showed that the Hornet met
         only 5 of the 15 operational performance requirements;
     •   the Army independent test organization did not perform necessary tests before
         production and deployment of the Hornet to prove that typical Army users
         could safely store, transport, handle, and employ the Hornet under realistic
         conditions, such as effects of battlefield noise, even though the Hornet uses
         acoustic and seismic sensors to detect targets;
     •   the Army did not revalidate the rationale for the continued development of the
         Wide Area Munition as the related threat had reduced by more than 80 percent
         since the program began more than 12 years ago;
     •   the program manager did not properly develop and update the test and
         evaluation master plan and the acquisition strategy to manage the Wide Area
         Munition program effectively and make informed decisions; and

     •   the program manager did not recommend that the Defense Acquisition
         Executive oversee the Wide Area Munition program as required, even though
         the program procurement costs will exceed $3 billion.

As a result, the Army has obligated about $305 million for a weapon system that, after
12 years of development effort, has yet to demonstrate through developmental testing or
a dedicated phase of operational test and evaluation, the ability to satisfy minimum
acceptable operational performance requirements. Further, if the program continues,
the Army plans to obligate another $30.7 million to complete development efforts and
$237.6 million in procurement funds through FY 2007. Of the $237.6 million, the
program manager plans to spend $23.2 million to procure 107 Hornets in excess of the
270 required by the 82nd Airborne Division for its basic load, the only unit scheduled
to receive the Hornet. Implementing the recommendations would allow the Army to
put the $268.3 million of remaining funds programmed for the Wide Area Munition to
better use. See the Finding section for a discussion of the audit results. The Finding
section provides details on the audit results. Appendix A summarizes the review of the
management control program.

Summary of Recommendation. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics conduct a special review of the Wide Area
Munition program to address the issues identified during the audit and to determine
whether the current program should continue. We also recommend that the Wide Area
Munitions Program Manager immediately validate Hornet requirements of the
82nd Airborne Division and adjust Hornet procurement quantities accordingly.

Management Comments. We received comments from the Director, Strategic and
Tactical Systems, Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Army. The Director, Strategic and Tactical Systems
stated that the Deputy for Munitions would perform the recommended review of the
Wide Area Munition program that would focus on requirements, program acquisition
category, and viability of Army acquisition plans for the Advanced Hornet. The Army
disagreed with the finding and stated that it had revalidated the need for 377 Hornets.
A discussion of the management comments is in the Finding section and Appendix F,
and the complete text is in the Management Comments section.

Audit Response. The comments from the Director, Strategic and Tactical Systems
were partially responsive. In response to the final report, we ask that the Director,
Strategic and Tactical Systems reconsider his position on reviewing the Hornet safety
confirmation, the threat, and the conditional materiel release and related get-well plan
as part of the Wide Area Munition program review. The comments from the Army
were not fully responsive. We stand by our finding statements. In revalidating the
number of Hornets needed, the Army ignored the fact that the 82nd Airborne Division,
recipient of all Hornet units, would rather use other weapon systems in the Army
inventory to defeat the threat because of Hornet performance limitations. In response
to the final report, we ask that the Army reconsider the need to invest in more than
270 Hornet units that equates to the basic load of the 82nd Airborne Division.
Accordingly, we request that the Director, Strategic and Tactical Systems, and the
Army provide additional comments by December 10, 2001.


                                           ii
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                               1
     Objectives                                                               2

Finding
     Program Management of the Wide Area Munition                             3

Appendixes
     A. Audit Process
          Scope                                                              21
          Methodology                                                        21
          Management Control Program Review                                  22
          Prior Coverage                                                     23
     B. Definitions of Technical Terms                                       24
     C. Wide Area Munition Chronology of Events                              27
     D. Expected Performance                                                 30
     E. Wide Area Munition Performance Requirements                          31
     F. Audit Response to Management Comments Concerning the Report          35
     G. Report Distribution                                                  41

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   43
     Acting Assistant Secretary of the Army (Acquisition, Logistics and
       Technology)                                                           47
Basic Wide Area Munition (Hornet)
Source: Armament Research and Development Evaluation Center
Background
        The Army initiated the Wide Area Munition (WAM) program in November
        1986. The Deputy Chief of Staff for Operations approved the required
        operational capability (ROC) document for the WAM on February 6, 1990, that
        specified the development of three WAM variants: hand-emplaced; volcano-
        delivered; and deep attack Army Tactical Missile System delivered. Since
        1990, the Army has funded development efforts for two versions of the hand-
        emplaced WAM: the basic WAM (Hornet) and the WAM product improvement
        program (Advanced Hornet). On February 13, 1990, the Deputy Commander
        for Armaments and Munitions approved the WAM to enter into the engineering
        development phase of the acquisition process. The program office did not issue
        the development contract for the Advanced Hornet until June 1996.

        The Army is designing the hand-emplaced WAM as a smart, autonomous, top-
        attack, anti-tank munition to neutralize armored combat vehicles (track and
        heavy wheeled) from a standoff distance. It is a self-contained, 35-pound
        weapon system that is designed to detect, identify, track, engage, and neutralize
        armored vehicles within a 100-meter attack radius. It is to be carried and set up
        by a single soldier. When set up, the employing soldier will arm the WAM
        either manually or by remote control.

        After it is armed, the WAM enters a power-cycling standby mode to conserve
        energy until its acoustic and seismic sensors detect approaching vehicles. The
        WAM is to then engage the selected target by tilting its launch mechanism in the
        target direction and firing an infrared-equipped, top-attack munition called a
        sublet. When the sublet detects a target’s infrared signature, the sublet fires a
        top-attack penetrator slug intended to defeat the lightly armored top-side of most
        combat vehicles. If the sublet does not detect any suitable target, it is to fire its
        top-attack penetrator after a predetermined time-out has expired, effecting a self-
        destruct.

        On June 18, 1996, the Program Executive Officer, Armored Systems
        Modernization (then the milestone decision authority)1, approved the Hornet for
        low-rate initial production and authorized the continued development of the
        Advanced Hornet. The WAM Program Office, in its acquisition strategy,
        showed that the Army planned to procure 33,991 WAM units for an estimated
        program cost of about $2 billion. However, Army budget documentation shows
        that the approved Army acquisition objective is 53,376 WAM units. As of June
        2001, the Army had procured 110 of the 377 Hornets under low-rate initial
        production. The remaining WAM procurement quantity of 33,614 units will be
        in the Advanced Hornet configuration. The Army manages the WAM program
        as an acquisition category II major acquisition program. Appendix B provides
        definitions of technical terms used in this report.




1
On November 27, 2000, the milestone decision authority was changed to the Army Acquisition
Executive.


                                                1
Objectives
     The audit objective was to evaluate the overall management of the WAM
     program. Because the program was in the engineering and manufacturing
     development phase, we determined whether management was cost-effectively
     developing and readying the system for the production phase of the acquisition
     process. In addition, we evaluated the management control program as it
     related to our audit objective. See Appendix A for a discussion of the audit
     scope and methodology, the review of the management control program, and
     prior coverage related to the audit objectives.




                                        2
Program Management of the Wide Area
Munition
The Army and the WAM Program Manager did not effectively manage
the program to ready the Hornet for production and deployment, and to
conduct the engineering and manufacturing development phase for the
Advanced Hornet. Specifically,

       •   the Army and program office supported the continuation of
           the program even though the WAM program experienced
           significant unit cost increases and schedule slippages;

       •   the Army allowed changes to the Hornet operational
           performance requirements below those originally established
           and acceptable by the user;

       •   the Army independent test organization determined that the
           Hornet was not operationally effective;

       •   the Army independent test organization did not perform
           necessary tests before production and deployment of the
           Hornet to prove that typical Army users could safely store,
           transport, handle, and employ the Hornet under realistic
           conditions;

       •   the Army did not revalidate the rationale for the continued
           development of the WAM as the related threat had
           significantly reduced since the end of the Cold War;

       •   the program manager did not properly develop and update the
           test and evaluation master plan and the acquisition strategy;
           and

       •   the program manager did not recommend that the Defense
           Acquisition Executive oversee the WAM program as
           required.

Those conditions occurred because the Army and the program office did
not adhere to DoD and Army policies and procedures for effectively
managing major systems and programs. As a result, the Army has
obligated about $305 million in research, development, test and
evaluation funds, for a weapon system that, after 12 years of
development effort, had yet to demonstrate, through developmental
testing or a dedicated phase of operational test and evaluation, the ability
to satisfy minimum acceptable operational performance requirements.
Further, if the program continues, the Army plans to obligate another
$30.7 million to complete development efforts and $237.6 million in
procurement funds through FY 2007. Of the $237.6. million, the
program manager plans to spend $23.2 million to procure 107 Hornets in
excess of the 270 Hornets required by the 82nd Airborne Division.


                             3
Acquisition and Materiel Release Policy
     DoD Policy. DoD Instruction 5000.2, “Operation of the Defense Acquisition
     System,” October 23, 2000, and DoD Regulation 5000.2-R, “Mandatory
     Procedures for Major Defense Acquisition (MDAPs) and Major Automated
     Information System (MAIS) Acquisition Programs,” June 10, 2001, establish
     policies and procedures for managing major acquisition programs. The DoD
     5000 series documents:

           •   require the conduct of operational test and evaluation to determine
               the operational effectiveness and suitability of a system under
               realistic operational conditions and to determine whether the
               minimum acceptable operational performance requirements as
               specified in the requirements document have been satisfied;

           •   require the program manager to develop and document an acquisition
               strategy that will serve as the road map for program execution from
               program initiation through post-production support and include the
               critical events that govern the management of the program;

           •   require the program manager to obtain cost performance reports on
               all contracts that require compliance with earned value management
               system guidelines. Cost performance reports provide contract cost
               and schedule performance for program management, provide early
               indications of contract cost and schedule problems, and permit
               assessment of implemented management actions to resolve such
               problems;

           •   require milestone decision authorities to use exit criteria as one of the
               tools available to decide whether an acquisition program should
               progress within an acquisition phase or continue to the next phase at
               milestone decision points; and

           •   define program acquisition categories and the corresponding
               milestone decision authorities for program oversight.

     Army Acquisition Policy. Army Regulation 70-1, “Research, Development,
     and Acquisition, Army Acquisition Policy,” January 15, 1998, requires the
     Army to follow the guidance and procedures contained in DoD
     Regulation 5000.2-R for Acquisition Category II major systems.

     Army Materiel Release Policy. Army Regulation 700-142, “Materiel Release,
     Fielding, and Transfer,” May 1, 1995, establishes the documentation
     requirements for releasing and fielding materiel within the Army.




                                         4
Status of WAM Program
        As provided in DoD Instruction 5000.2, the outcome of systems acquisition is a
        system that represents a judicious balance of cost, schedule, and performance in
        response to an expressed need. The Army, however, allowed costs to increase,
        schedules to slip, and performance to degrade.

        Original Cost and Schedule. On February 6, 1990, the Assistant Deputy Chief
        of Staff for Operations and Plans, Force Development approved the ROC for
        the WAM. The ROC projected an initial operational capability for the Hornet
        by the 4th Quarter of FY 1995. As of June 2001, the Hornet had not reached its
        initial operational capability; this represents a schedule slip of more than 5 years
        since the program inception. Moreover, the ROC projected the purchase of
        15,416 units at a cost of $11,110 per unit.

        Revised Cost and Schedule. With the objective to enhance program stability
        and control cost growth, the WAM milestone decision authority approved an
        acquisition program baseline agreement on June 18, 1996. The agreement
        showed that the first Army unit would be equipped with the Hornet by
        September 1999. The agreement also showed a total procurement of 33,991
        units at a threshold cost of $38,100 each. As of June 2001, the program office
        had yet to field an operational unit, and had reported a FY 2000 unit cost of
        $217,014 each, a unit cost increase of 1,550 percent more than the original
        projected cost of $11,110 in 1990 that was inflated to $13,145 in FY 2000
        dollars.2 In subsequent production years, the estimated unit cost declines to
        $56,826, a 330 percent increase more than the original unit cost projection (as
        inflated to FY 2000 constant dollars).

        Revised Mission Scenarios. Although the Army could not explain the reason
        for the increased WAM quantities, we noted that the Army revised its mission
        scenarios for the WAM because of the operational performance deficiencies
        identified during testing. In the 1990 ROC, the operational concept was to
        deploy twenty Hornets to overwatch conventional minefields. Because of
        identified performance deficiencies, the Army changed mission scenarios and
        used the Hornet in the gauntlet and X-pattern from overwatching conventional
        minefields. The gauntlet obstacle consisted of using up to nine clusters (with
        three to six Hornets per cluster), while the X-pattern obstacle consisted of
        20 Hornets (in five clusters of four Hornets each). Also, in greater than
        4 inches of snow, the Army plans to use nearly twice as many Hornets in each
        of the above scenarios.

        Challenges of the Advanced Hornet. The WAM program continues to face
        challenges in the areas of cost, schedule, and performance as related to the
        Advanced Hornet. However, those challenges have become increasingly
        difficult to quantify. The program status report of the Defense Contract
        Management Agency to the program manager for the period February 16
        through March 16, 2001, shows both cost and schedule as high risk. It further

2
 The Director, Strategic and Tactical Systems, Under Secretary of Defense for Acquisition, Technology,
and Logistics, provided an adjusted unit cost of $13,145 inflated to FY 2000 dollars.


                                                  5
    states that the program significantly deviated from the cost and performance of
    the work budgeted. However, at the direction of the program office, the
    contractor reported only actual costs and not the budget information needed to
    measure the performance of the contractor. In the cost performance reports for
    the financial periods ending May 28, 2000 through April 29, 2001, the
    contractor for the Advanced Hornet reports only actual and cumulative costs at
    the direction of the program office. The contractor indicated that budget
    information would not be reported until the WAM Program Office completed a
    restructure of the WAM program, scheduled for completion in September 2001.
    In the cost performance report for the financial period ending April 29, 2001,
    the contractor further states that the program manager was continuing to refine
    the requirements for the Advanced Hornet.

    DoD Regulation 5000.2-R requires program managers to obtain cost
    performance reports to provide early indications of contract cost and schedule
    problems and to permit an assessment of implemented management actions to
    resolve such problems. Without reporting budget information, the program
    manager cannot determine whether the contractor cost and schedule
    performance was under or over budget cost and schedule requirements.

    Additionally, DoD Regulation 5000.2-R requires milestone decision authorities
    to use exit criteria as one of the tools available for use in deciding whether an
    acquisition program should progress within an acquisition phase or continue to
    the next phase at milestone decision points. Exit criteria are program-specific
    accomplishments that must be satisfactorily demonstrated before a program can
    progress further in the current acquisition phase or continue to the next
    acquisition phase. As discussed in Inspector General, DoD, Report No. D-
    2001-032, “Use of Exit Criteria for Major Defense Systems,” January 10,
    2001, the WAM program does not have exit criteria for the next Advanced
    Hornet milestone decision because of ongoing efforts to restructure the program.

    As shown in Appendix C, the WAM program has a history of changes in
    performance requirements and threats, and test results that indicated that the
    Hornet was not operationally effective. Notwithstanding this information, the
    Army continued to support the funding and development of that program.

Requirements and Demonstrated Capabilities
    On June 18, 1996, the Program Executive Officer, Armored Systems
    Modernization (then the milestone decision authority), approved the Hornet for
    low-rate initial production and authorized the continued development of the
    Advanced Hornet. The Program Executive Officer granted approval even
    though the weapon system did not demonstrate, through developmental testing
    or through a dedicated operational test and evaluation, its capabilities to satisfy
    minimal acceptable operational performance requirements.

    Requirements. The ROC established 15 operational performance requirements
    for the Hornet, and an additional operational performance requirement for the
    Advanced Hornet. The WAM Acquisition Plan, approved by the milestone



                                         6
       decision authority on June 9, 1995, and updated June 17, 1996, states that the
       Hornet and the Advanced Hornet must conform to the operational performance
       requirements established in the ROC.

              Requirements Changes. Since the approval of the ROC in 1990, the
       Army Engineer School, as the user representative for the Army, allowed the
       WAM Program Manager to deviate from the original ROC operational
       performance requirements. Specifically, the Army Engineer School, at the
       request of the WAM Program Manager, approved changes of operational
       performance requirements to a level below that acceptable by the user.

       For example, the ROC requires that the Hornet perform with a 70 percent
       success rate and operate in limited visibility conditions such as rain and snow
       and (based on a European environment) on slopes of 15 degrees or less. On
       July 22, 1991, the Director of Combat Developments, Army Engineer School,
       agreed with the WAM Program Manager to allow WAM operational
       performance degradations for extreme weather conditions that the Army
       estimated to occur 20 percent of the time.3 Accordingly, the 70 percent success
       rate for the WAM would apply only 80 percent of the time and result in a
       58 percent expected performance rate. (Appendix D provides more detail on the
       calculations for the expected overall performance rate.) At the WAM Program
       Manager’s request, the Director of Combat Developments also allowed the
       performance of the WAM to degrade to 50 percent when the WAM was
       required to engage a target in rain, more than 4 inches of snow, or on slopes
       beyond 6 degrees. Because the emplacing units deploy the munition in advance
       of target engagement, it is unlikely that the units would know the environmental
       conditions that will exist when the target is engaged. The Army Engineer
       School had not updated the ROC to show a revised WAM expected performance
       success rate.

       As discussed subsequently in the materiel release section of the finding, the need
       for the WAM to engage wheeled vehicles as targets is essential to Army users;
       however, on May 17, 1996, the Director of Requirements, Office of the Deputy
       Chief of Staff for Operations and Plans, approved another change to the ROC
       that omitted heavy wheeled vehicles as valid targets for the Hornet. Further, in
       April 2001, the Army Training and Doctrine Command System Manager,
       Engineer Combat System (the user representative), agreed to a program office
       request to allow the contractor to substitute radios that are not as common as the
       original radio proposed for the communication requirement of the Advanced
       Hornet. The system manager allowed the change because the program office
       determined that cost and schedule constraints could not be met if it continued
       with the current design approach. The prime contractor plans to modify its
       subcontract to procure an unspecified quantity of radio systems other than the
       Single Channel Ground and Airborne Radio System.

       The prime contractor’s system specifications for the Advanced Hornet,
       November 1998, specified that the WAM would interface with the Single
       Channel Ground and Airborne Radio System. This system is a very high-

3
The Army Armament Research, Development and Engineering Center used a Search and Destroy
Munition weather sensitivity study to determine severe and extreme weather conditions.


                                              7
frequency, frequency modulation combat net radio developed by the Army. It is
the primary means of command and control for infantry, armor, and artillery
units. By allowing the contractor for the Advanced Hornet to use a radio other
than the Single Channel Ground and Airborne Radio System, the Army
Engineer School introduced additional training, supply, and maintenance issues
into Army units receiving the Advanced Hornet.

Demonstrated Capabilities. On July 16, 1999, the Director, Operational Test
and Evaluation, issued his report, “Live Fire Test and Evaluation of the XM-93
Hand-Emplaced Wide Area Munition (HE-WAM).” The purpose of the report
was to assess the lethality of the Hornet.

Also, in April 2000, the Army Test and Evaluation Command (ATEC), the
Army independent testing organization, issued the “System Evaluation Report
For Materiel Release of the Hand Emplaced – Wide Area Munition (HE-
WAM).” This report assesses the performance of the Hornet against the
15 operational performance requirements established in the ROC. The Army
Engineer School designated 5 of the 15 operational performance requirements as
specific critical functional objectives in the ROC. In May 1999 and July 2000,
ATEC also provided the WAM Program Manager with safety confirmations on
the ability of the Army users to safely store, transport, handle, and employ the
Hornet. Moreover, on March 12, 2001, the Deputy Under Secretary of the
Army (Operations Research) concurred with ATEC that sufficient testing had
been completed to deem the WAM safe to employ.

        Live-Fire Test and Evaluation. ATEC performed the live-fire test and
evaluation of the Hornet under the oversight of the Office of the Director,
Operational Test and Evaluation, to assess its lethality. The Director,
Operational Test and Evaluation, concluded that the live-fire test of the Hornet
against actual threat vehicles demonstrated its lethality, given a hit against tanks
and light armored vehicles when critical areas were struck. The Director,
Operational Test and Evaluation, also concluded that the Hornet was not
effective out to its required range and was only marginally effective at half the
required range. Commenting on the conduct of the live-fire test and evaluation
of the Hornet, the Director, Operational Test and Evaluation, stated that:

       •   insufficient test data were gathered to assess all aspects of operational
           effectiveness and suitability; that is, no realistic operational testing of
           the tactical Hornet, including firing at moving threat targets, was
           conducted;

       •   few end-to-end firings were conducted of the tactical Hornet, and
           those were all against single tank targets, traveling on flat ground,
           and on a straight path whose closest point of approach was exactly
           50 meters;

       •   no tactical Hornet shots were made against targets out to the required
           100-meter engagement range; and

       •   tactical firings were not made against non-tank targets.



                                      8
        Operational Test and Evaluation. Based on all testing performed
(developmental and operational), ATEC concluded, in its April 2000 System
Evaluation Report, that the Hornet was not operationally effective because the
Hornet did not satisfy all of its effectiveness requirements, foremost being the
probability of kill requirement. Conversely, ATEC concluded that the Hornet
was operationally suitable because changes in design, as well as changes in
tactics, techniques and procedures, addressed previously identified suitability
issues.

The ATEC System Evaluation Report showed that the Hornet met 5 of the
15 performance requirements. The remaining 10 performance requirements
were either partially met (6), not met (2), or not tested (2). Moreover, ATEC
stated that the Hornet did not achieve one of the five specific critical functional
objectives; that is, a self-destruct just before the end of the battery’s life. The
performance requirement for the Hornet to self-destruct before battery life
expenditure is needed so that enemy forces cannot secure the Hornet and its
technology. The report also concluded that the Hornet partially met only three
of the remaining four specific critical functional objectives.

In conducting the test, ATEC did not use either production or production-
representative items and did not ensure that testing was accomplished under
realistic conditions. As a result, ATEC reached conclusions on operational
effectiveness and operational suitability that were based on incomplete and
nonrepresentative test data. Appendix E provides more detail on the Hornet
performance against each of the 15 operational performance requirements.

                Use of Live Munitions. Instead of using live munitions to
conduct Hornet operational tests, ATEC used inert trainers that were the same
configuration as the live munition with respect to size, weight, and appearance
but did not contain high explosives. ATEC noted in its test report that the use
of inert trainers detracted from the realism of the test because the soldiers knew
they were using the inert trainers, and that removed the stress connected with
working with live munitions. As a result, the test data showed that the soldiers
sometimes held the manually armed inert trainers for as much as 6 minutes
before emplacement. As designed, the safe separation time allotted for manual
arming is 5 to 6 minutes. When asked why live munitions were not used, the
Technical Director for ATEC stated that operational testing was never
performed using live munitions. However, Army policy on test and evaluation
requires the operational test environment to be as realistic as possible and for
typical users to operate and maintain the system under actual deployment
conditions.

                Reported Test Limitations. In the System Evaluation Report,
ATEC states that it did not conduct the operational test of the Hornet under
realistic conditions. Specifically, the Hornets used during operational tests were
not production or production-representative because they were not live tactical
munitions. Instead, ATEC used inert trainers as discussed above. Although
technical tests used live munitions, the Hornets were not armed by soldiers, but
were armed using a remote arming fixture.




                                      9
Other test limitations included terrain restrictions, lack of battlefield noise, and
the use of modeling and simulation. For safety reasons, ATEC prohibited
testers from crossing hard-surface roads on foot and in mission-oriented
protective posture level IV gear. This prohibition was a significant test
restriction because the Army planned to use a gauntlet configuration on high-
speed avenues of approach for emplacement of the Hornet, which includes hard-
surface roads. Also, ATEC did not evaluate the effects of battlefield noise on
the Hornet, even though the Hornet uses acoustic and seismic sensors to detect
targets. Technical testing attempted to evaluate battlefield noise by using
recorded background noises played through speakers. However, test range
limitations resulted in unclear results that ATEC could not readily interpret.
Without knowing the impacts of battlefield noise on Hornet performance, the
Army has no assurance that the Hornet can operate in the presence of acoustic
and seismic stimuli expected in a battlefield environment. Finally, the modeling
and simulation did not include the effects of smoke and other obscurants on the
deployed Hornet in an operational environment. As a result, the modeling and
simulation did not provide results that realistically represent expected Hornet
operational performance on the battlefield.

        Testing for Safety. As stated in an ATEC safety confirmation
memorandum, May 27, 1999, ATEC evaluated Hornet safety by testing a
variety of attributes and selected a specific quantity of Hornets to test for each
attribute. For example, ATEC performed and evaluated a series of tests that
involved dropping a Hornet 7 feet onto a steel plate. They dropped 2 units
without a shipping container; 3 units with a shipping container, at ambient
temperature; and 9 units with a shipping container, conditioned at a temperature
of 145 degrees Fahrenheit, and 17 units with a shipping container, conditioned
at a temperature of –60 degrees Fahrenheit. Although the tested Hornet units
passed each of the above tests, it is unclear how ATEC applied those test results
to reach the conclusion that the Hornet was safe to store, transport, handle, and
employ. We asked ATEC, the Army’s independent test organization, to provide
information such as the criteria used to design the sampling plan and the lot size
for reaching conclusions on WAM safety. ATEC referred our questions to the
program office. However, the program office response did not provide
sufficient information to allow us to confirm the conclusion by ATEC that the
Hornet was safe. Specifically, the program office did not provide the sampling
rationale used and the 90 percent acceptable defect rate provided by the program
office did not appear realistic.

Even without knowing the acceptable error rates or sampling rationale, it is
possible, based on sound statistical acceptance sampling, to project the accuracy
of a conclusion on WAM safety that is based on sample sizes. To illustrate,
based on a sample of two Hornets passing a 7-foot drop onto steel plate without
a shipping container, ATEC assumed that all WAM units would pass this test.
If ATEC accepts a 1 percent failure rate for the universe, and bases its
conclusion on testing two units, there is a 98 percent chance for an incorrect
conclusion that an error rate of 1 percent or less actually exists for the entire
universe. Conversely, if ATEC accepts a 10 percent failure rate, and bases its
conclusion on testing two units, there is an 81 percent chance for an incorrect
conclusion that an error rate of 10 percent or less actually exists for the entire
universe.


                                     10
    Based in part on the operational test and evaluation performed, ATEC issued
    safety confirmation memorandums on May 27, 1999, and July 19, 2000. The
    memorandums conclude that the Hornet was safe to store, transport, handle, and
    employ. As discussed, the conclusion was not based on a statistically adequate
    sample. Therefore, no statistically valid conclusion on the safety of the Hornet
    can be made based on the data available.

            Oversight. DoD Directive 5141.2, “Director of Operational Test and
    Evaluation (DOT&E),” May 25, 2000, provides for the oversight of operational
    test and evaluation of major Defense acquisition programs and selected
    programs by the Director, Operational Test and Evaluation. The Director,
    Operational Test and Evaluation did not oversee the operational test and
    evaluation of the Hornet because the WAM program did not qualify for
    operational test oversight as it was less than the funding threshold for an
    Acquisition Category I program. However, as a result of concerns expressed to
    the Office of the Director, Operational Test and Evaluation on December 15,
    2000, regarding the quality of operational test and evaluation performed on the
    Hornet, the Director, Operational Test and Evaluation, decided to place the
    Advanced Hornet on the oversight list for operational test and evaluation.

    Conclusion. Based on established operational performance requirements and
    capabilities demonstrated through testing:

           •   the Army did not demonstrate the operational performance
               requirements of the Hornet that were originally established and
               accepted by the user;

           •   the Hornet met only 5 of the 15 operational performance
               requirements established by the user before low-rate initial
               production and deployment;

           •   the program manager did not require the conduct of a dedicated test
               and evaluation using realistic conditions, such as effects of battlefield
               noise, even thought the Hornet uses acoustic and seismic sensors to
               detect targets; and

           •   the Army independent test organization did not perform necessary
               tests to prove that typical Army users could safely store, transport,
               handle, and employ the Hornet.

    Additionally, for assurances of safety, the operational user relies on ATEC
    conclusions that are judgmental, rather than based on an adequate statistical
    sample size.

Change in Threat
    The Army did not revalidate the rationale for the continued development and the
    approved acquisition objective for the WAM as the threat that justified the need
    for the WAM decreased significantly. The Army initiated the WAM program to
    increase the complexity of minefields and the time required for an enemy to


                                        11
    breach the minefield. The Army approved the ROC on February 6, 1990, and
    revised it on May 17, 1996. The 1990 ROC stated that Soviet and Warsaw Pact
    forces would remain the most serious threat to the Army beyond 2015.

    Subsequent documentation, however, recognized the impact of the dissolution of
    the Soviet Union. Specifically, the “Wide Area Mine Cost and Operational
    Effectiveness Analysis Main Report,” July 1992, which the Army Engineer
    School approved, states that the primary projected threat for the WAM had been
    greatly overcome by events. Moreover, the “Wide Area Munition Advanced
    Hornet System Threat Assessment Report,” October 2000, states that, before
    1990, the threat environment of concern was a war against combined Russian
    and Warsaw Pact forces in Central Europe. Additionally, the number of targets
    that the WAM was designed to engage, significantly decreased since 1990.

    The ROC identified the targets for the WAM as armored and heavy wheeled
    vehicles. A comparison of the armored targets in the 1990 Antiarmor Master
    Plan with those in the January 2000 Defense Intelligence Agency Outyear
    Threat Report showed that the number of armored targets that U.S. Forces
    expect to face from 2002 through 2007 will drop significantly. Specifically, the
    number of enemy tanks and armored combat vehicles in the Outyear Threat
    Report had reduced by more than 80 percent from the number of targets in the
    1990 Antiarmor Master Plan. As a result, the Hornet may no longer be
    required to meet a threat that existed more than 12 years ago.

    The General Accounting Office reached a similar conclusion in its report,
    “Defense Acquisitions: Reduced Threat Not Reflected in Antiarmor Weapon
    Acquisitions,” July 1999. The General Accounting Office concludes that the
    threat of a massive, heavily armored attack by potential enemies had greatly
    diminished, and that the DoD plans to acquire large quantities of new and
    improved antiarmor weapons did not appear consistent with the reduced size of
    the armored threat. In a subsequent report, “Defense Acquisitions: Higher
    Level DoD Review of Antiarmor Mission and Munitions Is Needed,” June
    2001, the General Accounting Office states that the DoD has a large inventory
    of about 40 different types of antiarmor weapons and is currently funding
    13 new antiarmor weapons, including the WAM, to defeat the diminished
    threat. Accordingly, the continued development of the WAM and the quantities
    of WAMs required to defeat the reduced armored combat vehicle threat needs
    revalidation.

Program Documentation
    The Army did not properly develop and update program documentation needed
    to manage the WAM program and make informed decisions effectively.
    Program documents such as the test and evaluation master plan, the acquisition
    strategy, and the get-well plan for the conditional materiel release of the Hornet
    did not meet regulatory requirements and contain current programmatic
    decisions. As a result, the Army has no assurance that it is making
    programmatic decisions based on the most current information available.




                                        12
Test and Evaluation Master Plan. The test and evaluation master plan (master
plan) documents the overall structure and objective of the test and evaluation
program. DoD Regulation 5000.2-R requires that master plans include
conducting a dedicated, independent operational test and evaluation, using
production or production-representative articles and typical users, before a
decision is made to enter full-rate production. The purpose of such testing is to
determine system operational effectiveness and suitability under realistic
(combat) conditions and to determine whether the minimum acceptable
operational performance requirements have been satisfied.

The master plan for the WAM did not include a requirement for conducting a
dedicated operational test and evaluation of production or production-
representative Hornet units under realistic (combat) conditions. The WAM
master plan, which the program manager and ATEC developed, was approved
by representatives from test organizations throughout the Army. Without plans
to conduct a dedicated operational test and evaluation before fielding the Hornet,
ATEC limited its ability to make valid conclusions concerning the Hornet’s
operational effectiveness, operational suitability, and weapon system safety
because of incomplete and nonrepresentative test data.

Acquisition Strategy. The program manager did not update the WAM
acquisition strategy as needed to ensure that it satisfied Army fielding
requirements. This condition occurred because the program manager did not
ensure that the acquisition strategy showed the current Army acquisition
objective approved in recent programmatic decisions for the WAM. As a result,
the acquisition strategy of the program manager did not agree with the approved
Army acquisition objective in budget documentation. Further, the program
manager planned to acquire 107 Hornet units in excess of the 270 required by
the 82nd Airborne Division, the only unit scheduled to receive the Hornet.

        Approved Acquisition Objective. On March 29, 1995, the milestone
decision authority for the WAM program approved the acquisition strategy
submitted by the program manager. The acquisition strategy showed a WAM
program acquisition objective of 33,799 units. On June 17, 1996, the milestone
decision authority approved a revised acquisition strategy that included a WAM
program acquisition objective of 33,991 units. The program office, however,
did not have documentation from the Army to support the computation of either
of those program acquisition objectives.

Although the number of armored targets has decreased by 80 percent since
1990, the Army has increased the number of WAMs required to neutralize the
threat. Since 1998, the Deputy Chief of Staff for Operations provided the
U.S. Congress with a Budget Estimate Submission showing an approved Army
acquisition objective of at least 53,376 WAM units. The Deputy Chief of Staff
for Operations based the Army’s approved acquisition objective on a study that
the Center for Army Analysis performed. The Center for Army Analysis did
not use the latest threat analysis in its computation. Instead, it used doctrinal
information, engineer capabilities, and combat simulations.

       Hornet Quantities Required. The WAM Program Office plans to
procure 377 Hornets to satisfy Hornet requirements of the 82nd Airborne


                                    13
Division. The Army designated fielding of the 377 Hornets for the
82nd Airborne Division, which was the only Army unit scheduled to receive the
Hornets, despite the Hornet deficiencies identified in the conditional materiel
release. However, the 82nd Airborne Division needs only 270 Hornets to fulfill
the WAM requirement. Because the October 2000 Budget Estimate Submission
shows a Hornet unit cost for FY 2000 of $217,014, the program office is
planning to spend $23.2 million to procure 107 Hornets in excess of the
270 Hornets that the 82nd Airborne Division needs.

Materiel Release. Army Regulation 700-142 allows for the conditional materiel
release of a weapon system when one or more of the criteria for full materiel
release have not been met. Army Regulation 700-142 also requires a get-well
plan for each weapon system performance criterion that precluded the full
materiel release. The get-well plan must include the projected date for
correcting each weapon system performance deficiency as well as the means of
correction. The WAM Program Manager did not adhere to Army
Regulation 700-142 requirements on the conditional materiel release of the
Hornet to the 82nd Airborne Division. Specifically, the program manager did
not establish a get-well plan that addressed all of the weapon system deficiencies
associated with the Hornet and did not identify how or when the deficiencies
would be resolved.

        Get-Well Plan for the Hornet. In December 2000, the WAM Program
Manager requested a conditional materiel release for the Hornet because design
limitations, as identified through developmental and operational tests, showed
that the Hornet did not meet ROC performance requirements. Although the
conditional materiel release request included the requisite get-well plan, the plan
did not identify all ROC weapon system performance deficiencies associated
with the Hornet and did not address the associated corrective action(s).
Specifically, the get-well plan did not identify the inability of the Hornet to
satisfy its self-destruct requirement and the ability of the Hornet to only partially
satisfy the requirements for arming reliability in both the manual and remote
arming modes.

In the get-well plan, the WAM Program Manager indicated a get-well date of
March 31, 2004, that corresponds to the scheduled full materiel release of the
Advanced Hornet. The WAM Program Manager stated that the Hornet would
not be retrofitted to correct the weapon system deficiencies that caused the
conditional materiel release.

Although the 82nd Airborne Division was aware of WAM operational
performance shortfalls and the allowable environmental degradations, the 82nd
Airborne Division was not aware that the Hornet, as designed, could not attack
wheeled vehicles. In October 2000, the program office briefed the
82nd Airborne Division that the Advanced Hornet would improve performance
against wheeled vehicles. That statement implied that the Hornet had some level
of operational performance against wheeled vehicles, which it does not. In a
meeting with us on April 3, 2001, the 82nd Airborne Division stated that the
WAM performance requirement against wheeled vehicles was mission essential.
Without that capability, the 82nd Airborne Division stated it would rather use
weapon systems that were already in the Army’s warfighting inventory and were


                                     14
capable of functioning against wheeled vehicles. Those weapon systems
included: the M21 anti-tank mine, the Javelin, and the Tube-Launched
Optically tracked Wire-guided missile.

        Potential Impact of Uncorrected Deficiencies. The Army Audit
Agency discussed potential problems associated with ineffective or
unimplemented get-well plans in Army Audit Agency Report AA 99-411,
“Materiel Release,” September 30, 1999. The Army Audit Agency Report
AA 99-411 cites examples of uncorrected weapon system deficiencies that
resulted in loss of life, a failure to meet critical performance requirements, and
increased costs. For example, the Apache helicopter program had six open
deficiencies since 1986 that were associated with a conditional materiel release.
In FY 1994, an in-flight failure involving one of the open deficiencies resulted
in the loss of two lives and the total destruction of an Apache helicopter at a cost
of $11 million.

In another example, the Army fielded the Kiowa Warrior helicopter under a
conditional materiel release in FY 1992. In FY 1995, the deficiencies, affecting
helicopter weight, caused two major accidents that resulted in damages of
almost $1 million. The Army determined that the excess weight of the aircraft
affected landing, causing engine failure as the aircraft rapidly descended. As a
result of the safety problem, the Army developed a two-phase Safety
Enhancement Program to reduce the risk to Kiowa Warrior helicopter aviators.
The enhancements will cost about $326 million and will not be completed until
FY 2006. The Office of the Deputy Chief of Staff for Logistics agreed to the
intent of the Army Audit Agency recommendation to prioritize deficiencies and
establish a maximum time frame of 3 years to resolve the deficiencies
determined to be high priority.

The Army based its decisions concerning the conditional materiel release of the
Hornet on incomplete documentation. As previously discussed, the Hornet get-
well plan did not provide a comprehensive list of all operational performance
shortcomings as required. As a result, the Assistant Deputy Chief of Staff for
Logistics, Army Forces Command, assumed that the Hornet met all ROC
operational performance requirements not listed, to include pursuit of wheeled
vehicles. The granting of the conditional material release for the Hornet
required Army command statements and approvals in addition to the get-well
plan. Army Regulation 700-142 requires that the gaining major command
complete an Urgency of Need Statement for conditional materiel release of all
Army weapon systems. The Urgency of Need Statement documents the gaining
major command’s acceptance of the conditions of release as documented in the
get-well plan.

On February 13, 2001, the Assistant Deputy Chief of Staff for Logistics signed
the Urgency of Need Statement for the conditional materiel release of the
Hornet to the 82nd Airborne Division based on the deficiencies listed in the get-
well plan. Based on the Urgency of Need Statement provided by the Assistant
Deputy Chief of Staff for Logistics, Army Forces Command, the Commander,
Army Tank-automotive and Armaments Command approved the conditional
materiel release of the Hornet to the 82nd Airborne Division on March 16,
2001.


                                    15
Acquisition Category
    The WAM Program Manager did not recommend to the milestone decision
    authority that the oversight of the WAM program be raised to the level of an
    Acquisition Category I program. The condition occurred in part because of a
    concern that the WAM program would not be able to withstand the increased
    oversight associated with an Acquisition Category I program. As a result, the
    Defense Acquisition Executive was not given the opportunity to provide the
    level of oversight required for a program that may be valued at more than
    $3 billion.

    DoD Instruction 5000.2 defines an acquisition category as an attribute of an
    acquisition program that determines the program level of review, decision
    authority, and applicable procedures. Acquisition Category I programs include
    two subcategories: Acquisition Category ID programs where the milestone
    decision authority is the Under Secretary of Defense for Acquisition,
    Technology and Logistics, and Acquisition Category IC programs where the
    milestone decision authority is the Component Acquisition Executive.

    Additionally, DoD Instruction 5000.2 requires DoD Components to classify
    programs for which estimated expenditures for research, development, test and
    evaluation or for which procurement totals more than $365 million and
    $2.19 billion, respectively, as Acquisition Category I major programs. Those
    programs are classified with either the Defense Acquisition Executive or the
    Component Acquisition Executive, if delegated, as the milestone decision
    authority. Usually, the Defense Acquisition Executive makes either the low-rate
    initial production decision or the full-rate production decision for Acquisition
    Category I major Defense acquisition programs.

    On December 18, 1998, the Army Training and Doctrine Command System
    Manager, Engineer Combat System (the user representative) sent an electronic
    message to the WAM Program Manager, subject “Hornet Product Improvement
    Program (PIP).” The purpose of the message was to present the user position
    on the program manager’s proposed change to the execution of the WAM
    program. In the message, the system manager emphasized the requirement for
    the program to remain under the Acquisition Category I threshold because
    “Simply put, we can’t hold up to the scrutiny that we will incur should we
    become an ACAT I [acquisition category I] program….”

    The Army managed the WAM program as an Acquisition Category II major
    system. Based on the approved Army acquisition objective, the program meets
    the requirement for designation as an Acquisition Category I major Defense
    acquisition program. Since the Army established the WAM, the estimated
    program costs have grown. In the October 2000 Budget Estimate Submission,
    the Army reported an approved acquisition objective of 53,376 WAMs. If the
    Army procures the total acquisition objective of 53,376 units, based on the
    FY 2007 estimated WAM unit cost of $56,826, WAM procurement program
    costs would total about $3.06 billion. Based on the acquisition objective
    quantities, the program meets the procurement cost criteria for classification as
    an Acquisition Category I major Defense program.


                                        16
Summary
        We recognize that the warfighters support the concept for the WAM
        development. However, the WAM is a weapon system that has been in
        development for 12 years, has experienced a unit cost increase of 330 percent
        and a schedule slippage of more than 5 years, has not demonstrated the ability to
        meet minimum operational performance requirements that are acceptable to the
        user, and may no longer be needed to defeat the reduced threat since the end of
        the Cold War. Accordingly, the cost increases, combined with the lack of a
        clear return on investment to the operational user, and the significant reduction
        in threat, raises serious questions as to the cost-effectiveness of the WAM.

        Because of the continuing development problems with the WAM program, the
        Under Secretary of Defense for Acquisition, Technology and Logistics should
        conduct a special review of the WAM program to determine whether the current
        program should continue.

        Potential Funds Put to Better Use. Through FY 2001, the Army obligated
        $305 million for research, development, test and evaluation. It plans to obligate
        an additional $30.7 million to complete development efforts through FY 2003,
        and $237.6 million for production through FY 2007 for a total of
        $268.3 million.4 If the Under Secretary of Defense for Acquisition,
        Technology, and Logistics makes the decision to discontinue the production of
        the Hornet and the development of the Advanced Hornet, the Army could put
        the remaining funding of $30.7 million for research, development, test and
        evaluation and $237.6 million for procurement in the Future Years Defense Plan
        to better use.

Management Comments on the Finding and Audit Response
        Summaries of management comments on the finding and audit response are in
        Appendix F.




4
 The WAM Program Manager planned an additional $18.844 million of research, development, test and
evaluation funding for WAM in FY 2002 and $11.872 million in FY 2003. In addition, the program
manager planned the following production funding: $2.013 million in FY 2002, $27.571 million in
FY 2003, $38.334 million in FY 2004, $55.010 million in FY 2005, $57.249 million in FY 2006, and
$57.394 million in FY 2007.


                                               17
Recommendations, Management Comments and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics conduct a special review of the Wide Area
    Munition program and determine whether the current program should
    continue by obtaining and assessing:


           a. data on program cost and schedule growth since program
    inception;

           b. Advanced Hornet contract cost performance reports to determine
    the extent of program cost and schedule risks and the potential for further
    program cost increases and schedule slippage;

           c. documentation that justified changes to the minimum operational
    requirements of the Hornet and Advanced Hornet;

           d. live-fire and operational test reports to determine whether the
    program office and contractor have viable plans to correct performance
    deficiencies identified during testing that affected the successful
    demonstration of 10 of the 15 operational performance requirements;

           e. the propriety of test documentation that supported the Hornet
    safety confirmation used to reach conclusions concerning the safety of the
    Hornet;

          f. a current threat analysis to determine the continued need for the
    Wide Area Munition in view of the reduced threat and other antiarmor
    systems available to defeat the same threat;

           g. the need for a dedicated operational test and evaluation, in the
    test and evaluation master plan, to ensure that the Wide Area Munition is
    tested under realistic conditions, to include operation by typical users with
    live munitions, and battlefield noise;

          h. the justification for Wide Area Munition procurement quantities
    addressed in the program acquisition strategy;

          i. the completeness of documentation that supported Army decisions
    concerning the Hornet conditional materiel release and the get-well plan;
    and

         j. the Army’s rationale for not recommending that the program be
    managed as an Acquisition Category I program as required.

    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Director, Strategic and Tactical Systems, concurred
    that a review of the Wide Area Munition program was warranted. Instead of

                                      18
the Under Secretary of Defense for Acquisition, Technology, and Logistics
conducting the review as recommended, the Director, Strategic and Tactical
Systems stated that he would assign the Deputy for Munitions to lead a review
team, that will include the Offices of the Director for Program Analysis and
Evaluation, the Director, Operational Test and Evaluation, and the Army
Deputy Chief of Staff for Operations and Plans. The Director, Strategic and
Tactical Systems stated that the review would focus on confirming the
requirement for the Wide Area Munition, determining the appropriate
acquisition category for the program, and assessing the viability of the Army
plans for ensuring that the Advanced Hornet meets operational performance
requirements.

Audit Response. The Director, Strategic and Tactical Systems, comments were
partially responsive to the recommendation. A review of the Wide Area
Munition program led by the Deputy for Munitions is an acceptable alternative
to the Under Secretary of Defense for Acquisition, Technology, and Logistics
performing the review as recommended. However, the review of the Wide
Area Munition program should also assess:

       •   the propriety of test documentation that supported the Hornet safety
           confirmation used to reach conclusions concerning the safety of the
           Hornet;

       •   a current threat analysis to determine the continued need for the Wide
           Area Munition in view of the reduced threat and other antiarmor
           systems available to defeat the same threat; and

       •   the completeness of documentation that supported Army decisions on
           the Hornet conditional materiel release and get-well plan.

In Appendix F, we discuss why those areas should also be made part of the
review of the Wide Area Munition program. Accordingly, we request that the
Director, Strategic and Tactical Systems, reconsider the extent of the planned
review when responding to the recommendation in the final report.
2. We recommend that the program manager for the Wide Area Munition
immediately validate Hornet requirements for the 82nd Airborne Division
and adjust procurement quantities.

Army Comments. The Acting Assistant Secretary of the Army (Acquisition,
Logistics and Technology), responding for the WAM Program Manager, stated
that the Training and Doctrine Command Systems Manager revalidated the need
for 377 Wide Area Munitions. The Acting Assistant Secretary disagreed with
the finding and stated that the 270 basic Wide Area Munitions represented the
basic load for the combat engineer battalion. A basic load is the amount of
ammunition a unit needs for one engagement and usually represents an initial
capability for the unit’s requirement for a campaign but does not represent the
unit’s total requirement. The Acting Assistant Secretary stated that the 82nd
Airborne Division accepted the conditional materiel release of the basic Wide




                                   19
Area Munition in January 2001, and further stated that the program manager
received a July 9, 2001, letter from Headquarters, U.S. Army Forces
Command, reiterating the Army’s urgent need for the Hornet.

Audit Response. The Acting Assistant Secretary of the Army (Acquisition,
Logistics and Technology) comments were not fully responsive. We stand by
our finding statements. We agree that the 270 basic Wide Area Munitions
represented the basic load for the 82nd Airborne Division. However, as
indicated in the finding, the 82nd Airborne Division stated that it was not aware
when it accepted the conditional release of the basic Wide Area Munition that
the basic Wide Area Munition, as designed, could not attack wheeled vehicles.
The 82nd Airborne Division stated that the Wide Area Munition performance
requirement against wheeled vehicles was mission essential. Without that
capability, the 82nd Airborne Division stated it would rather use weapon
systems that were already in the Army’s warfighting inventory that were capable
of functioning against wheeled vehicles. Under those circumstances, it would
be fiscally prudent for the Army to limit its investment in the basic Wide Area
Munition to the 270 units needed to fulfill the 82nd Airborne Division basic
load, and not procure the remainder of the 82nd Airborne Division Wide Area
Munition requirement until the contractor can produce units that are capable of
attacking wheeled vehicles. Accordingly, we request that the Army reconsider
its position when responding to the recommendation in the final report.




                                   20
Appendix A. Audit Process

Scope
    We reviewed documentation dated from November 1986 through June 2001.
    We used criteria in DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” October 23, 2000, and DoD Regulation 5000.2-R
    “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
    Major Automated Information System (MAIS) Acquisition Program,” June 10,
    2001, to perform the audit.

    To accomplish the audit objective, we took the following steps:

           •   determined whether the users adequately defined the system
               requirements;

           •   determined whether the program office developed and implemented
               an acquisition strategy, an acquisition plan, a risk management plan,
               and a test and evaluation plan;

           •   compared the armored targets in the 1990 Antiarmor Master Plan
               with those in the 2002-2007 Defense Intelligence Agency Outyear
               Threat Report;

           •   examined the Hornet engineering, manufacturing, and development
               contract DAAA21-90-C-0018, low-rate initial production contract
               DAAE30-96-C-0015, and the engineering, manufacturing, and
               development contract for the Advanced Hornet. We discussed the
               content of the contracts with the Defense Contract Management
               Agency;

           •   reviewed the Hornet get-well plan to determine whether it supported
               the material release of the Hornet to the 82nd Airborne Division; and

           •   reviewed management controls related to the audit objective.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Weapon Systems Acquisition high-risk area.

Methodology
    Audit Type, Dates, and Standards. We performed this program audit from
    September 2000 through June 2001 in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion




                                       21
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo an new review.

    Use of Computer-Process Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. The Technical Director and an operations
    research analyst from the Quantitative Methods Division, Office of the Assistant
    Inspector General for Auditing, DoD, assisted in reviewing the ATEC
    operational assessment and safety confirmation for the WAM program. The
    Quantitative Methods Division interpreted the test results that ATEC provided.
    Also, mechanical engineers from the Technical Assessment Division assisted in
    reviewing the technical requirements in the required operational capability
    document, the test and evaluation master plan, the initial operational test and
    evaluation report, and the live-fire test and evaluation report.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and contractor locations. Further details are
    available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, June 10, 2001, acquisition managers are to use
    program cost, schedule, and performance parameters as control objectives to
    implement the requirements of DoD Directive 5010.38. Accordingly, we
    limited our review to management controls directly related to those elements of
    the WAM program.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40. Management controls
    were not adequate for ensuring that the program manager adhered to DoD and
    Army acquisition regulatory requirements on test and evaluation, acquisition
    strategy, materiel release, acquisition categories, and overall program
    management. Recommendation 1., if implemented, will ensure adherence to
    regulatory requirements. We will provide a copy of the report to the senior
    official responsible for management controls in the Office of the Assistant
    Secretary of the Army (Financial Management and Comptroller).

    Adequacy of Management’s Self Evaluation. Program office officials
    performed a self-evaluation. However, in their self-evaluation, program office




                                       22
    officials did not identify the specific material management control weaknesses
    that the audit identified because the self-evaluation did not review for regulatory
    compliance.

Prior Coverage
    During the past 5 years, the General Accounting Office issued three audit
    reports, and the Inspector General, DoD, issued three audit reports that
    addressed the WAM program.

    General Accounting Office
    GAO Report No. GAO-01-607 (OSD Case No. 3075), “Defense Acquisitions:
    Higher Level DoD Review of Antiarmor Mission and Munitions Is Needed,”
    June 2001
    GAO Report No. NSIAD-00-67 (OSD Case No. 1946), “Defense Acquisitions:
    Antiarmor Munitions Master Plan Does not Identify Potential Excesses or
    Support Planned Procurements,” May 2000
    GAO Report No. NSIAD-99-105 (OSD Case No. 1786), “Defense
    Acquisitions: Reduced Threat Not Reflected in Antiarmor Weapon
    Acquisitions,” July 1999

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-032, “Use of Exit Criteria for
    Major Defense Systems,” January 10, 2001
    Inspector General, DoD, Report No. 99-230, “Protection of the Wide-Area
    Munition Against Radio Frequency Weapons,” August 20, 1999
    Inspector General, DoD, Report No. 99-143, “Preparation of the Wide-Area
    Munition For the Year 2000,” April 30, 1999




                                        23
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program level of review, decision authority, and
   applicable procedures. Weapon system acquisition categories consist of I, major
   Defense acquisition programs; II, major systems; and III, all other acquisition
   programs. Acquisition Category I programs include two subcategories:
   Acquisition Category ID programs where the milestone decision authority is the
   Under Secretary Defense for Acquisition, Technology, and Logistics, and
   Acquisition Category IC programs where the milestone decision authority is the
   Component Acquisition Executive. The Component Acquisition Executive is
   the milestone decision authority for all Acquisition Category II programs.

   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-
   defined, system-specific requirements and, ultimately, into operationally
   effective, suitable, and survivable systems.

   Acquisition Program Baseline. An acquisition program baseline is a document
   that contains the most important cost, schedule, and performance parameters
   (both objective and thresholds) for the program. It is approved by the Milestone
   Decision Authority, and signed by the program manager.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Army Acquisition Objective. The Army acquisition objective is the quantity of
   an item required to equip the approved Army force.

   Budget Estimate Submission. The DoD Component’s budget estimate
   submissions to the Office of the Secretary of Defense shows the DoD
   Component’s budget requirements for inclusion in the DoD budget.

   Dedicated Operational Test and Evaluation. The dedicated operational test
   and evaluation is the field test, under realistic conditions, of any item (or key
   component) of weapons, equipment, or munitions to determine effectiveness and
   suitability for use in combat by typical military users, and the evaluation of the
   results of such tests.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where
   the program office and its contractors fully develop, engineer, design, fabricate,
   test, and evaluate the systems and the principal items necessary for support.

                                       24
Exit Criteria. Exit criteria are program-specific accomplishments that must be
satisfactorily demonstrated before a program can progress further in the current
acquisition phase or continue to the next acquisition phase.

Full-Rate Production. Full-rate production is contracting for economic
production quantities following stabilization of the system design and validation
of the production process.

Initial Operational Capability. The initial operational capability is the first
attainment of the capability to employ effectively a weapon, item of equipment,
or system of approved specific characteristics with the appropriate number,
type, and mix of trained and equipped personnel necessary to operate, maintain,
and support the system.

Initial Operational Test and Evaluation. Initial operational test and evaluation
is that portion of operational test and evaluation on production or production-
representative articles conducted to determine a system’s operationally
effectiveness and suitability for intended use by representative users to support
the decision to proceed beyond low-rate initial production.

Low-Rate Initial Production. Low-rate initial production is the production of
a system in limited quantities to provide articles for additional operational test
and evaluation, to establish an initial production base, and to permit an orderly
increase in the production rate that will lead to full-rate production after
successful completion of operational testing.

Milestone. A milestone is the point where the milestone decision authority
decides whether to start or continue an acquisition program in the acquisition
process.

Milestone Decision Authority. A milestone decision authority is the individual
designated in accordance with criteria established by the Under Secretary of
Defense for Acquisition, Technology, and Logistics to approve entry of an
acquisition program into the next phase.

Operational Effectiveness. Operational effectiveness is the overall degree of
mission accomplishment of a system when used by representative personnel in
the environment planned or expected for operational employment.

Operational Suitability. Operational suitability is the degree to which a system
can be placed satisfactorily in field use.




                                    25
Outyear Threat Report. An outyear threat report is a collection of quantitative
and qualitative assumptions, estimates, and facts about the threat that will face
U.S. and Allied Forces in scenarios specified in the given defense planning
guidance during the outyear period. The report presents the Defense
Intelligence Agency estimate of enemy capabilities in three levels of detail
ranging from types and numbers of weapons to an analysis of expected trends in
modernization of weaponry and force structure.

Threshold. A threshold is the minimum acceptable value necessary to satisfy
the need.




                                   26
Appendix C. Wide Area Munition Chronology of
            Events
        November 1986                     Department of the Army initiated the WAM
                                          program.

        February 1990                     The Army approved the “Wide Area Mine1
                                          (WAM) Required Operational Capability (ROC),”
                                          which included 15 performance requirements for
                                          the Hornet and an additional requirement for the
                                          Advanced Hornet. The ROC stated that Soviet and
                                          Warsaw Pact forces will remain the most serious
                                          threat to the Army from the present to beyond
                                          2015.

        February 1990                     The Deputy Commander for Armaments and
                                          Munitions approved the WAM to enter into the
                                          full-scale engineering and development phase.

        July 1991                         The Director of Combat Developments, Army
                                          Engineer School, allowed the WAM Program
                                          Manager to degrade WAM performance for
                                          extreme weather conditions.

        July 1992                         The Commandant, Army Engineer School,
                                          approved the WAM Cost and Operational
                                          Effectiveness Analysis Main Report which stated
                                          that the primary projected threat had been greatly
                                          overcome by events.

        March 1995                        The Program Executive Officer, Armored Systems
                                          Modernization, approved the acquisition strategy
                                          that showed a total program acquisition objective
                                          of 33,799 units.

        June 1996                         The Program Executive Officer, Armored Systems
                                          Modernization, approved a revised acquisition
                                          strategy that showed a total program acquisition
                                          objective of 33,991 units.




1
 On May 17, 1996, the Deputy Chief of Staff for Operations approved the request of the Army Training
and Doctrine Command to change the name of the program to Wide Area Munition.


                                                 27
June 1996       The Program Executive Officer, Armored Systems
                Modernization, approved the Hornet program for
                low-rate initial production and authorized
                continuation of the development of the Advanced
                Hornet.

June 1996       The Program Executive Officer, Armored Systems
                Modernization, approved the Acquisition Program
                Baseline Agreement for the Hornet that states that
                the average threshold unit cost is $38,100 and total
                procurement quantities are 33,991.

May 1998        The Army approved the revised Test and
                Evaluation Master Plan for the Hornet. The
                master plan did not include a requirement for
                ATEC to perform operational testing on a
                production or production-representative article
                under realistic (combat) conditions.

May 1999        The ATEC confirmed that the Hornet was safe to
                store, transport, handle, and employ.

July 1999       The Director, Operational Test and Evaluation,
                issued the report, “Live Fire Test and Evaluation
                of the XM-93 Hand-Emplaced Wide Area
                Munition (HE-WAM),” which concluded that the
                Hornet was not effective out to its required range
                and was only marginally effective at half the
                required range.

April 2000      The ATEC issued the report, “System Evaluation
                Report For Materiel Release of the Hand
                Emplaced – Wide Area Munition (HE-WAM),”
                which concluded that the WAM was not
                operationally effective, but was operationally
                suitable.

May 2000        At the direction of the program office, the prime
                contractor began submitting cost performance
                reports without budget information to measure
                contractor performance.

October 2000    The Deputy Chief of Staff for Intelligence
                validated the WAM System Threat Analysis
                Report which stated that, before 1990, the threat
                environment of concern was a war against
                combined Russian and Warsaw Pact forces in
                Central Europe.

November 2000   The Army Acquisition Executive became the
                milestone decision authority for the WAM
                program.

                      28
December 2000   The program manager requested conditional
                materiel release of Hornet.

February 2001   The Assistant Deputy Chief of Staff for Logistics,
                Army Forces Command, signed the Urgency of
                Need Statement for the conditional materiel release
                of the Hornet to the 82nd Airborne Division.

March 2001      The Commander, Army Tank-automotive and
                Armaments Command, approved conditional
                materiel release of Hornet to the 82nd Airborne
                Division.

April 2001      The Director, Combat Requirements, Army
                Engineer School, allowed the WAM Program
                Office to use a radio other than the Single Channel
                Ground and Airborne Radio System to satisfy the
                communication requirement of the Advanced
                Hornet.




                      29
Appendix D. Expected Performance
   The ROC defines a 70-percent success rate for the Hornet in all employment
   patterns. However, on July 22, 1991, the Director of Combat Developments,
   Army Engineer School, agreed with the WAM Program Manager to allow
   WAM operational performance degradations for extreme weather conditions that
   the Army estimated would occur 20 percent of the time. Accordingly, the
   WAM 70-percent success rate would only apply 80 percent of the time.
   Therefore, the expected performance of the Hornet under all environmental
   conditions is 58 percent. We calculated the expected performance rate as
   follows:

   Midpoint Accuracy: Represents midpoints within their respective categories of
   no degradation, up to 50-percent degradation, and over 50-percent degradation.
   For example, .85 is the midpoint between 70 percent and 100 percent (threshold
   level) in the no degradation category.

   Employment Condition: No degradation, up to 50-percent degradation, and
   more than 50 percent degradation, are given conditions under which
   employment will occur.

   Occurrence Probability: Stated probability of an employment condition
   occurring.

   Minimum Success Rate by Employment Pattern: 70 percent

   Expected Overall Performance is:
   (Midpoint Accuracy .85) x (Occurrence Probability .80) x (Success Rate .70) +

   (Midpoint Accuracy .75) x (Occurrence Probability .19) x (Success Rate .70) +

   (Midpoint Accuracy .25) x (Occurrence Probability .01) x (Success Rate .70) = .58

    Midpoint Accuracy      0.85              0.75          0.25
                            No            Up to 50%      Over 50%       Expected
   Employment Condition Degradation       Degradation   Degradation      Overall
                                                                       Performance
   Occurrence Probability      0.80           0.19          0.01
       Success Rate             .70            .70          .70
    Employment Pattern:
         Gauntlet              0.47           0.10          0.01          0.58
        X- Pattern             0.47           0.10          0.01          0.58
        Overwatch              0.47           0.10          0.01          0.58




                                        30
Appendix E. Wide Area Munition Performance
            Requirements
The following table lists the results of operational tests of the Hornet against
performance requirements in the ROC as shown in the ATEC “System Evaluation
Report For Materiel Release of the Hand Emplaced – Wide Area Munition (HE-
WAM),” April 2000.

Performance Requirements. The ROC required that the Hornet perform with a
70-percent success rate. It also established 16 operational performance requirements
for the WAM. The first 12 performance requirements pertain to both the Hornet and
the Advanced Hornet. Requirements 13, 14, and 15 pertain to only the Hornet. The
ROC designated 5 of the 15 performance requirements as specific critical functional
objectives. The last performance requirement in the ROC pertained to the Advanced
Hornet only. The System Evaluation Report showed that the Hornet met 5 of the
15 performance requirements (33 percent). The remaining 10 performance
requirements either were partially met (6), not met (2), or not tested (2). Moreover,
ATEC stated that the Hornet did not achieve one of the five specific critical functional
objectives; that is, a self-destruct just before the end of the battery’s life.

The specific critical functional objectives are highlighted in italics.

                  Performance Requirements                           Met     Partially        Not    Not
                                                                               Met            Met   Tested
    1. Will automatically search, detect and recognize
    moving targets using top attack at a standoff                                X2
    distance of at least 100 meters in a circle around the
    mine.1
    2. Given a target within a kill radius of 100 meters,
    the probability of either a mobility3 or a firepower4                        X5
    kill or both must be at least (number is classified).
    3. Will attack all vehicles (targets and non-targets)
    if they approach the mine with a closest point of                                         X6
    approach of 15 meters or less.
1
 Performance requirement should not be construed to imply that every target will be engaged at the
periphery of Hornet attack circle.
2
 The Hornet partially met this performance requirement because it did not attain the contract performance
goal for all targets.
3
 A mobility kill is achieved by the Hornet destroying one or more of the vehicles' vital drive components
causing the target to be immobilized.
4
    A firepower kill is achieved by the Hornet destroying either the weapon system or crew.
5
 The Hornet partially met the performance requirement because the Hornet test units did not meet the
probability of kill for two of the four targets tested. Also, Hornet performance did not meet the
requirement for any of the targets beyond 50 meters.
6
 ATEC concluded that the Hornet did not meet the requirement. Also, the program manager’s Hornet
get-well plan, issued in support of a conditional materiel release decision, indicated that the requirement
was not met.


                                                     31
                  Performance Requirements                          Met     Partially     Not      Not
                                                                              Met         Met     Tested
    4. Have the capability to be deployed and function
    on slopes of 15 degrees or less (27 percent slope);
    terrain surfaces ranging from soft (loose and wet                          X7
    soils and snow) to hard (pavement and frozen
    ground); and in all non-urban and non-forested
    areas.
    5. Not require special tools or support equipment
    and be supportable by standard tools and test                    X
    measurement and diagnostic equipment.
    6. Be capable of at least one time remote (coded
    radio signal) turn on and command destruct and a                 X
    multiple self-destruct capability up to the maximum
    battery life.
    7. In all destruct modes (disturbance, command
    destruct, timeout, and low voltage detect) the                             X8
    ground platform electronics and the sublet will be
    destroyed to preclude enemy use of the Hornet or
    compromise of sensitive target algorithms or
    components.
    8. Must have field selectable self-destruct time that
    includes, as a minimum, those times consistent with              X
    the family of scatterable mines.
    9. Must be carried/emplaced by one man when                      X
    removed from its package.
    10. Be capable of being deployed by being dropped
    from a moving 5-ton dump truck and M548 cargo                                                   X9
    carrier going no faster than 20 miles per hour over
    secondary roads is desired.
    11. If a self-destruct is not set at time of
    employment, the Hornet must have a life, after
    activation (command on and manual arming), of at
    least 30 days; desired 180 days. Will self-destruct                                   X10
    just prior to battery life expenditure. Active life of
    the mine will be traded off against cost and
    reliability.



7
 ATEC did not test the terrain requirement because the testers were prohibited from crossing hard-
surface roads while on foot and in Mission Oriented Protective Posture Level IV for safety reasons. The
tests did show that the Hornet ground platform could successfully perform all of its mission-essential
functions on slopes of up to 15 degrees.
8
 All Hornets, that successfully functioned in the destruct modes, erased the ground platform electronics.
However, if the Hornet failed to function in the destruct mode, it did not erase sensitive target
algorithms.
9
    ATEC did not address the performance requirement in the System Evaluation Report.
10
     ATEC concluded that the performance requirement was not met.


                                                   32
                  Performance Requirements                          Met     Partially     Not      Not
                                                                              Met         Met     Tested
 12. Will have explosive ordnance and users must
 have the ability to render the Hornet safe for                                                      X11
 disposal.
 13. Must have manual arming capability. The safe
 separation time will be 5-6 minutes.                                           X12
 14. Must have a remote control arming capability.
 The safe separation time will be 30-35 minutes.                                X13
 Remote arming will not occur sooner than the safe
 separation times.
 15. Must be remotely controlled using the M71
 Modular Pack Mine System remote control unit.                      X14
 16. Follow-on capabilities (Advanced Hornet):

   a. Will be capable of multiple remote turn ON
 and OFF, with status confirmation (two-way
 communication), estimated FY 1997.
   b. Will be capable of controlling other similar
 mines for target selection and firing, resulting in a
 coordinated attack, estimated FY 1997.                                                              X15
   c. In its ultimate configuration, will be capable of
 sending target sensing and engagement data to
 friendly forces, estimated FY 1997.


Other Requirements. In addition to performance requirements, the ROC included the
following requirements for environmental and logistical considerations.
       • The hand-emplaced WAM will be used by personnel in standard battle dress,
           arctic clothing, and in Mission Oriented Protective Posture Level IV gear.
           In its packaged configuration, the WAM will be stored in hot, basic, and
           cold climatic conditions. The WAM must operate in limited visibility
           conditions such as smoke, fog, battlefield dust, rain, and snow.




11
 ATEC did not address the requirement in the System Evaluation Report. However, the Army Materiel
Command issued a memorandum on May 15, 2000, to attest to the safety of the Hornet.
12
  Performance requirement was partially met. Specifically, the system did not meet its manual arming
reliability exit criteria. However, it did meet its manual safe separation time. The requirement pertains
to the Hornet only.
13
  Performance requirement was partially met. Specifically, the system did not meet its remote arming
reliability exit criterion. However, it did meet its remote safe separation time. The requirement pertains
to the Hornet only.
14
     The requirement pertains to the Hornet only.
15
 The performance requirement applies to the Advanced Hornet, that ATEC did not test because the
program was still in the engineering and manufacturing development phase.


                                                    33
•   In a packaged configuration, the hand-emplaced WAM will not cause any
    restrictions that would preclude transportation by any type aircraft, ship,
    rail, highway, wheeled and tracked vehicles.

•   Nuclear, biological, and chemical contamination survivability is required in
    its packaged configuration.




                                    34
Appendix F. Audit Response to Management
            Comments Concerning the Report
   Our detailed responses to the comments from the Director, Strategic and
   Tactical Systems, and the Acting Assistant Secretary of the Army (Acquisition,
   Logistics and Technology) on statements in the finding of the draft report
   follows. The complete text of those comments is in the Management Comments
   section of this report.

   Management Comments. The Director, Strategic and Tactical Systems, and
   the Acting Assistant Secretary of the Army (Acquisition, Logistics and
   Technology) provided comments that specifically addressed cost and schedule
   growth, changes to requirements, operational effectiveness, testing for safety,
   the threat, program documentation, and acquisition category. The following
   discusses those specific comments and the audit response.

           Cost and Schedule Growth. The Director, Strategic and Tactical
   Systems, stated that while some degree of cost growth has occurred, the unit
   cost figures in the draft report were misleading. He stated that the program cost
   projection in the draft report used a unit cost figure from the 1990 ROC, that
   was developed before the start of the engineering and manufacturing
   development phase. He stated that the 1990 ROC figure (adjusted to FY 2000
   dollars) when compared to the recent FY 2000 unit cost estimate, showed an
   increase of 150 percent. He also stated that funding reductions early in the
   engineering and manufacturing development phase resulted in a schedule slip of
   3 years and that further development efforts to correct technical and
   performance problems contributed to schedule slips.

   The Acting Assistant Secretary of the Army (Acquisition, Logistics and
   Technology) stated that the WAM program was subjected to significant
   Congressionally-directed funding reductions in the first 2 years of the
   engineering and manufacturing development phase that caused program
   slippages beyond the control of the WAM Program Manager. He further stated
   that program manager did everything possible to minimize the effect of the
   funding reductions on cost and schedule.

           Audit Response. We asked the Director, Strategic and Tactical
   Systems, to provide the assumptions he used in his calculations that the cost
   increase was limited to 150 percent of the original unit cost. He referred us to
   the WAM Program Office which stated that they based the calculation on an
   inflation-adjusted unit cost that assumed a production rate of 4,000 units per
   year. The production rate of 4,000 units per year, however, is not consistent
   with the budget estimate submission provided to Congress that showed an
   average production rate of 496 units per year from FY 2000 through FY 2007.
   An adjustment for inflation, however, is appropriate. Accordingly, we have
   revised our calculations to reflect an original unit cost of $13,145, as inflated to
   FY 2000 dollars. Using the original unit cost, as inflated to FY 2000 dollars,
   WAM unit costs have increased by 330 percent instead of 500 percent as stated
   in the draft report. We modified this final report accordingly.


                                        35
Further, we recognize that program funding reductions for the first 2 years in
the engineering and manufacturing development phase affected the program
schedule. However, developmental efforts to correct Hornet technical and
performance problems were the primary contributors to the schedule slips
identified in the Finding. To illustrate, the milestone decision authority
approved the acquisition program baseline in June 1996. Because of Hornet
technical and performance problems identified in testing, the milestone decision
authority has yet to hold the Hornet full-rate production decision that was
specified for May 1998 in the June 1996 acquisition program baseline.

        Changes to Requirements. The Director, Strategic and Tactical
Systems, and the Acting Assistant Secretary of the Army (Acquisition, Logistics
and Technology) stated that they used the cost as an independent variable
principle for decision-making. Further, the Director, Strategic and Tactical
Systems stated that the WAM Program Manager and the user representative
negotiated and approved all changes to WAM operational performance
requirements using the cost as an independent variable principle.

        Audit Response. The most significant changes to Hornet operational
performance requirements concerned degradation of Hornet operational
performance in extreme weather conditions and the elimination of the need for
the Hornet to engage wheeled vehicles. The user representative approved
documents for the changes but did not indicate that changes to the operational
performance requirements resulted from using cost as an independent variable
principle. The Under Secretary of Defense for Acquisition and Technology
approved program manager use of cost as an independent variable principle in
December 1995.

The user representative approved the Hornet weather-related performance
degradations in July 1991 showing that the Hornet could not perform under
extreme weather conditions. Similarly, the Army Director of Requirements,
Office of the Deputy Chief of Staff for Operations and Plans, did not reference
the use of cost as an independent variable principle when approving the deletion
of the Hornet operational performance requirement to engage heavy wheeled
vehicles on May 17, 1996. Instead, the Director of Requirements stated that the
requirement was deleted because the primary use of the Hornet was to protect
early entry forces against tanks and other tracked armored vehicles. The
operational requirement for the Hornet to engage wheeled vehicles was deleted
after test results showed that the Hornet, as designed, could not perform as
required against wheeled vehicles.

        Operational Effectiveness. The Director, Strategic and Tactical
Systems, stated that the original operational scenarios for the WAM were
revised by the user during engineering and manufacturing development, but the
ROC was not updated. With respect to the revised operational scenarios, he
stated that the WAM met 12 of the 15 operational performance requirements.
He further stated that the remaining WAM shortcomings were documented in
the get-well plan supporting the conditional material release that the user
accepted.

The Acting Assistant Secretary of the Army (Acquisition, Logistics and
Technology) stated that ATEC determined that the basic WAM was not

                                   36
operationally effective because it did not meet its single shot probability of kill
requirement. However, he stated that ATEC concluded that the basic WAM
“achieved the mission performance objectives of the 82nd Airborne [Division]
for most targets of interest” and supported type classification limited
procurement and conditional materiel release for use by the 82nd Airborne
Division. He further stated that the basic WAM met all of its operational
performance requirements except for those identified in the get-well plan
supporting the conditional materiel release.

        Audit Response. The approved ROC is the baseline that ATEC used to
test the basic WAM to determine whether the test results demonstrated that the
basic WAM met the ROC operational performance requirements. Because the
Army user representative did not update the ROC to state the revised Army
needs, there is no assurance that ATEC tested the basic WAM in the most
effective and efficient manner.

Although the management comments indicated that the basic WAM “achieved
the mission performance objectives of the 82nd Airborne [Division] for most
targets of interest,” the 82nd Airborne Division stated that it was not aware that
the basic WAM, as designed, could not attack wheeled vehicles when it
accepted the conditions for the conditional release of the basic WAM. The 82nd
Airborne Division stated that the WAM performance requirement against
wheeled vehicles was mission essential. Without that capability, the 82nd
Airborne Division stated it would rather use weapon systems that were already
in the Army warfighting inventory that were capable of functioning against
wheeled vehicles.

Further, the get-well plan that the WAM Program Manager prepared to support
the conditional release of the basic WAM did not identify all ROC weapon
system performance deficiencies associated with the basic WAM and did not
address the associated corrective action(s). Specifically, the get-well plan did
not identify the inability of the basic WAM to satisfy its self-destruct
requirement and the ability of the basic WAM to only partially satisfy the
requirements for arming reliability in both the manual and remote arming
modes.

        Testing for Safety. The Director, Strategic and Tactical Systems, stated
that the basic WAM was subjected to the full spectrum of typical safety and
performance tests. He also stated that the Deputy Under Secretary of the Army
for Operations Research concurred that ATEC had conducted sufficient testing
to confirm the safety of the basic WAM.

The Acting Assistant Secretary of the Army (Acquisition, Logistics and
Technology) stated that throughout the development process appropriate tests
were conducted to ensure the safety of the basic WAM. He stated that
numerous independent organizations were involved in the evaluation and
approval cycle of the basic WAM to ensure its safety and suitability. He listed
the following organizations: the Surgeon General, the Army Center for Health
Promotion and Preventive Medicine, the Army Research Laboratory, the Army




                                     37
Safety Center, ATEC, and the Army Fuze Safety Board. In addition, he stated
that the Deputy Under Secretary of the Army for Operations Research
concurred that:

       •   ATEC had sufficient test results to justify the safety confirmation and

       •   the Army performed all necessary testing to ensure that typical Army
           users could safely use the basic WAM.

Audit Response. We disagree that the test results available to ATEC were
sufficient to confirm that the basic WAM units were safe to use by personnel of
the 82nd Airborne Division. Specifically,

       •   Instead of using live munitions to conduct basic WAM operational
           tests, ATEC used inert trainers that were the same configuration as
           the live munition with respect to size, weight, and appearance but did
           not contain high explosives.

       •   ATEC noted in its test report that the use of inert trainers detracted
           from the realism of the test. The soldiers knowledge that inert
           trainers were used, removed the stress connected with working with
           live munitions.

       •   The Army did conduct developmental tests using live munitions.
           However, the munitions were armed using a remote arming fixture
           rather than by soldiers as would be performed in an operational
           environment.

       •   Sample sizes used by ATEC to determine that the basic WAM was
           safe to store, transport, handle, and employ were too small. Based
           on the sample sizes selected, ATEC may have drawn an incorrect
           conclusion concerning the ability of operational users to safely store,
           transport, handle, and employ the basic WAM.

Accordingly, we continue to believe that the Deputy for Munitions, Office of
Strategic and Tactical Systems, should assess the safety of the basic WAM for
use by the 82nd Airborne Division personnel as part of the review of the WAM
program.

       Threat. The Director, Strategic and Tactical Systems stated that the
WAM System Threat Assessment Report was updated in May 2001, and it
supports the need for the WAM. He stated that a more detailed assessment was
needed to validate the requirement (the number needed) for WAM.

The Acting Assistant Secretary of the Army (Acquisition, Logistics and
Technology) stated that the WAM System Threat Assessment Report was
updated regularly every 2 years and the report continued to show significant
threats that WAM was designed to defeat. He also stated that the WAM
supports the Interim Brigade Combat Teams and all Army formations by
providing them with a lightweight, versatile, lethal capability not currently
available.


                                    38
        Audit Response. We agree that the updated WAM System Threat
Assessment Report identifies significant, but greatly diminished, threats for
which WAM was designed to defeat. However, the updated report did not take
into account, as part of the threat assessment, the large number of weapons that
DoD already has in its inventory to defeat the threat. As stated in the finding,
the “Wide Area Mine Cost and Operational Effectiveness Analysis Main
Report,” July 1992, states that the primary projected threat for the WAM had
been greatly overcome by events. Moreover, the General Accounting Office
also concluded in 1999, that the threat of a massive, heavily armored attack by
potential enemies had greatly diminished. The General Accounting Office
further stated that DoD has a large inventory of about 40 different types of
antiarmor weapons and it is currently funding 13 new antiarmor weapons,
including the WAM, to defeat the diminished threat.

Accordingly, we continue to believe that the Deputy for Munitions should assess
not only WAM requirements (the number needed) but also the diminished
threat, and demonstrated WAM capabilities to determine whether DoD needs to
continue development and procurement of the WAM as part of the review of the
WAM program. As stated earlier, the 82nd Airborne Division stated that the
WAM performance requirement against wheeled vehicles was mission essential.
Without that capability, the 82nd Airborne Division stated it would rather use
weapon systems that were already in the Army warfighting inventory that were
capable of functioning against wheeled vehicles. As of September 2001, the
WAM contractor had not demonstrated that the Hornet or the Advanced Hornet
was capable of defeating wheeled vehicle threats, a mission essential
requirement for operational users.

        Program Documentation. The Director, Strategic and Tactical
Systems, stated that the WAM test and evaluation master plan was updated at
each milestone decision point and was last updated in May 1998. He stated that
that the acquisition strategy was updated in 1996 to support the low-rate initial
production decision and was being updated for the Advanced Hornet program.
He agreed that a more thorough review was needed to assess the adequacy of
those documents.
The Acting Assistant Secretary of the Army (Acquisition, Logistics and
Technology) also stated that the WAM Program Manager updated and received
approval for the test and evaluation master plan and the acquisition strategy at
each milestone decision point as required.

        Audit Response. Although the WAM Program Manager updated and
received approval for the test and evaluation master plan and the acquisition
strategy at each milestone decision point as required, the documents were not
prepared or updated in accordance with requirements in DoD
Regulation 5000.2. Specifically, the test and evaluation master plan did not
include plans to conduct operational testing to support WAM production
decision points as required, and the acquisition strategy was not updated to show
how the WAM Program Office planned to achieve a significant increase in the
Army acquisition objective.




                                    39
        Acquisition Category. The Director, Strategic and Tactical Systems,
stated that the approved 1996 acquisition program baseline for the WAM
program identified a total procurement cost threshold of $1.18 billion, based on
a procurement quantity of 33,991. Based on the Army current procurement
objective of 19,780 WAM units, he stated that the estimated program
procurement cost of the WAM program was below the acquisition category I
threshold of $2.19 billion. He also stated that there were indications that the
estimated research, development, test, and evaluation cost of the WAM program
was close to the acquisition category I threshold of $365 million. Accordingly,
he stated that a more detailed review of the estimated research, development,
test, and evaluation cost of the WAM program was required to determine
whether the WAM should be an acquisition category I program.

The Acting Assistant Secretary of the Army (Acquisition, Logistics and
Technology) stated that because the approved procurement objective for the
WAM program was less that 20,000 units with a total cost of production of no
more that $1.2 billion, the WAM was correctly categorized as an acquisition
category II program.

        Audit Response. The Director, Strategic and Tactical Systems, and the
Acting Assistant Secretary of the Army (Acquisition, Logistics and Technology)
were using the Army WAM quantities approved for procurement rather than the
Army approved acquisition objective for the WAM, as stated in the Army
October 2000 budget estimate submission to Congress, to determine whether the
WAM program met criteria as an acquisition category I program. DoD
Instruction 5000.2 requires that acquisition programs with an eventual total
procurement cost of more that $2.19 billion be classified as an acquisition
category I program. In the case of the WAM program, the Army plans to
eventually acquire 53,376 units, its approved acquisition objective, and WAM
procurement costs would total about $3.06 billion. Accordingly, we continue to
maintain that the WAM program meets the procurement cost criteria for
classification as an acquisition category I major defense acquisition program.




                                   40
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics and Technology)
Deputy Under Secretary of the Army (Operations Research)
Commander, Army Forces Command
Commander, XVIII Airborne Corps
  Commander, 82nd Airborne Division
      Commander, 307th Engineer Battalion
Commander, Army Test and Evaluation Command
Commander, Army Engineer School
Deputy for Systems Acquisition, Army Tank-automotive and Armaments Command
  Program Manager for Mines, Countermine, and Demolition
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          41
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         42
Under Secretary of Defense For Acquisition,
Technology, and Logistics Comments




                       43
44
45
46
Acting Assistant Secretary of the Army
(Acquisition, Logistics and Technology)
Comments




                        47
48
49
50
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

     Mary L. Ugone
     John E. Meling
     Douglas P. Neville
     Barbara S. Wright
     Bradley M. Heller
     James D. Madden
     Kevin B. Palmer
     Chandra Sankhla
     Gary Butler
     James Hartman
     Ann A. Ferrante
